                                      TVA RESTRICTED INFORMATION




Memorandum from the Office of the Inspector General



September 29, 2014

James R. Dalrymple, LP 3K-C

REQUEST FOR MANAGEMENT DECISION – EVALUATION 2014-15053 – COAL
PLANT PREVENTIVE MAINTENANCE



Attached is the subject final report for your review and management decision. You are
responsible for determining the necessary actions to take in response to our findings.
Please advise us of your management decision within 60 days from the date of this report.

Information contained in this report may be subject to public disclosure. Please advise us
of any sensitive information in this report that you recommend be withheld.

If you have any questions or wish to discuss our findings, please contact Janell B. Cunio,
Senior Auditor, at (423) 785-4811 or Gregory R. Stinson, Director, Evaluations, at
(865) 633-7367. We appreciate the courtesy and cooperation received from your staff
during the review.



Robert E. Martin
Assistant Inspector General
 (Audits and Evaluations)
ET 3C-K

JC:FAJ
Attachment
cc (Attachment):
     William D. Johnson, WT 7B-K
     Dwain K. Lanier, MR 3K-C
     Justin C. Maierhofer, WT 7B-K
     Richard W. Moore, ET 4C-K
      R. Windle Morgan, WT 4D-K
      Charles G. Pardee, WT 7B-K
      TVA Board of Directors
      OIG File No. 2014-15053




      WARNING: This document is FOR OFFICIAL USE ONLY. It is to be controlled, stored, handled, transmitted,
      distributed, and disposed of in accordance with TVA policy relating to Information Security. This information
              is not to be further distributed without prior approval of the Inspector General or his designee.

                                      TVA RESTRICTED INFORMATION
                               TVA RESTRICTED INFORMATION


Office of the Inspector General                         Evaluation Report
                                                                To the Senior Vice President,
                                                                Power Operations




 COAL PLANT PREVENTIVE
 MAINTENANCE




Audit Team                                                                                       Evaluation 2014-15053
Janell B. Cunio                                                                                    September 29, 2014
Lucas W. Cotter                                                                               2014

             WARNING: This document is FOR OFFICIAL USE ONLY. It is to be controlled, stored, handled, transmitted,
             distributed, and disposed of in accordance with TVA policy relating to Information Security. This information
                     is not to be further distributed without prior approval of the Inspector General or his designee.


                             TVA RESTRICTED INFORMATION
Office of the Inspector General                                     Evaluation Report




ABBREVIATIONS
EPRI                       Electric Power Research Institute
MBO                        Maintenance Basis Optimization
PaSTA                      Planning and Scheduling Tool Assistant
PdM                        Predictive Maintenance
PER                        Problem Evaluation Report
PM                         Preventive Maintenance
RTF                        Run-To-Failure
TVA                        Tennessee Valley Authority




Evaluation 2014-15053

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                                                 Evaluation Report


TABLE OF CONTENTS
EXECUTIVE SUMMARY ................................................................................ i

BACKGROUND................................................................................................ 1

OBJECTIVE, SCOPE, AND METHODOLOGY ........................................ 2

FINDINGS ......................................................................................................... 3
    COMPLIANCE WITH PM SCHEDULES VARIES BY PLANT AND PM
    METRICS CAPTURED MAY NOT FULLY REPRESENT ALL PM
    ACTIVITIES NOT COMPLETED ………………………….………………………4

    BOTH UNCOMPLETED AND UNESTABLISHED PM CONTRIBUTED
    TO EQUIPMENT FAILURES………………………………………………………6

    MBO IS PROGRESSING, BUT HAS SEEN DELAYS ………………………….7

    THE ABSENCE OF PM REQUIREMENTS COULD MAKE IT HARDER
    TO MANAGE EQUIPMENT RELIABILITY RISK ............................................. 9

RECOMMENDATIONS...................................................................... 9


APPENDIX
MEMORANDUM DATED SEPTEMBER 26, 2014, FROM JAMES R.
DALRYMPLE TO ROBERT E. MARTIN




Evaluation 2014-15053

                                      TVA RESTRICTED INFORMATION
                                  Evaluation 2014-15053 – Coal Plant
                                       Preventive Maintenance
                                           EXECUTIVE SUMMARY

      Why the OIG Did This Evaluation

          Preventive Maintenance (PM) is maintenance tasks carried out at a
          predetermined interval to reduce the likelihood of a failure. PM is important
          to the reliable operation of assets. As a result of findings identified with
          nuclear PM in a recent evaluation,i we conducted a review of coal PM. The
          objective of our review was to determine if coal plant PM has been
          performed in accordance with established schedules and, if not, what effect
          the deviations are having.

      What the OIG Found

          We found compliance with PM schedules varies by plant and the PM
          compliance metric captured may not fully represent all PM activities not
          completed. The monthly PM compliance percentage varied from 10.5 to
          100 percent. The most common reasons cited for not completing PMs or
          adjusting the PM schedule was resource driven and/or due to
          emergent/sponsored work.ii We also found if a work order does not have
          the correct reconciliation code, a canceled PM would be counted as
          complete, which would skew the data. Reconciliation codes are essential
          for accurate reporting, but they are not a required field in Maximo.

          We found that both uncompleted PMs and unestablished PMs contributed
          to equipment failures. In a review of 65 Problem Evaluation Reports
          (PERs), we identified 6 PERs linking failures to PM issues. Four of those
          PERs relate to equipment for which no PM schedule or requirement had
          been established, and 2 PERs relate to uncompleted PMs. We also found
          plants are making progress implementing the new Maintenance Basis
          Optimization (MBO), but have seen some delays in achieving target dates.
          Support of outages has impacted some sites abilities to complete its MBO
          phases. Additionally, we found the absence of PM requirements could
          make it harder to manage equipment reliability risk.




i
     Evaluation 2012-14845 – Review of TVA's Nuclear Power Group Preventive Maintenance.
ii
     Emergent work is defined by Standard Programs and Processes 06.037, Work Management (work
     management process) as any emergent activity where immediate attention is required to protect the
     health and safety of the general public, correct a significant hazard, or prevent the deterioration of
     system conditions to a possible unsafe and unstable level. The terms emergent work and sponsored
     work are very often used interchangeably, and in regard to impacting scheduled work, they are the same.
     Sponsored work is not defined in the work management process; however Tennessee Valley Authority
     management explained that it is an activity where immediate attention is requested, and it is chosen to
     break the schedule to accommodate the work.
                                                                                                     Page i

                                     TVA RESTRICTED INFORMATION
                     Evaluation 2014-15053 – Coal Plant
                          Preventive Maintenance
                           EXECUTIVE SUMMARY

What the OIG Recommends

  We recommend the Senior Vice President, Power Operations, take steps
  to:

     Increase PM completion/reduce deviations from PM schedules and
      reinforce importance of PM activities.
     Develop a way to more accurately capture and report PM compliance
      and other appropriate PM tracking metrics.
     Expedite MBO efforts.
     Consider the potential impact of having PM governed only by
      guidelines and not requirements.

TVA Management’s Comments

  TVA management generally agreed with the recommendations in this
  report. See the Appendix for TVA’s complete response.

Auditor’s Response

  The Office of the Inspector General concurs with TVA management’s
  response.




                                                                      Page ii

                      TVA RESTRICTED INFORMATION
Office of the Inspector General                                                            Evaluation Report


BACKGROUND
According to the Tennessee Valley Authority (TVA), a maintenance strategy is
essential in today’s utility industry, which is looking for maximum reliability at the
lowest cost. Preventive Maintenance (PM) is maintenance tasks carried out at a
predetermined interval, including Predictive Maintenance (PdM)1 routes, and
intended to reduce the likelihood of a failure, according to Engineering Guidance
Document 09.022, Maintenance Basis (maintenance basis process). Standard
Programs and Processes 06.037, Work Management (work management
process), elaborates that PM is system generated repetitive work orders in
support of operation, maintenance, calibration, inspection, testing and periodic
non-destructive examination of station system equipment and components. PMs
are generated on a predetermined frequency. Once generated, PM work orders
are loaded into the Planning and Scheduling Tool Assistant (PaSTA), planned,
executed and closed-out as any other work order.

The maintenance basis process states its purpose is to document the
maintenance basis/PM basis used to generate an optimized strategy focused on
condition and PM. TVA is currently on their third iteration of maintenance
optimization. The first maintenance optimization took place in the 1990s and
focused on Reliability Centered Maintenance.2 The second iteration, the
Maintenance Optimization Program, deployed in 2001, was an improvement over
the original program. Currently, TVA Coal, Gas, and Hydro are implementing
Maintenance Based Optimization (MBO), which is the third iteration of
optimization. MBO is a maintenance strategy to utilize PMs, PdM, and other
condition monitoring to avoid equipment failures. It is an aspect of Electric Power
Research Institute’s (EPRI) Plant Reliability Optimization.3 The MBO involves
evaluating and prioritizing equipment (components) based on criticality to plant
operation; as critical, non-critical, or run-to-failure (RTF). According to TVA
management, this iteration of optimization is more rigorous and has more
guidance from EPRI, which allows for an improved, risk-based PM program.




1
    PdM is an advanced PM technique that focuses on using technology to determine the condition of
    equipment of assets. PdM involves periodic equipment condition monitoring and diagnostics to increase
    the availability of plant equipment, reduce maintenance costs, and increase personnel safety by
    detecting equipment deterioration and taking preventative action prior to failure.
2
    Reliability Centered Maintenance was used widely in the aircraft industry. It reviews the design of each
    system and postulates a set of failure modes based upon an assumed failure of each component in the
    system. Based on the assumption, all possible outcomes are postulated and a maintenance program
    formulated.
3
    According to EPRI, EPRI’s Plant Reliability Optimization processes, such as MBO, Condition Based
    Maintenance, PdM, and Work Week Management, will result in the improvement of key power plant
    functional areas.
Evaluation 2014-15053                                                                                Page 1

                                    TVA RESTRICTED INFORMATION
Office of the Inspector General                                               Evaluation Report


Also, the importance of an optimized PM strategy includes:

   Higher reliability at a lower cost.
   Minor repairs before failure in lieu of broken/catastrophic failures.
   Efficient use of resources.
   Just-in-time maintenance.
   Scheduled maintenance is more efficient than emergency maintenance.
   Provides focus for reducing causes of premature failure, and opportunities for
    life extension.

The MBO is broken down into four phases. Figure 1 below details the four
phases and their benefit.

                                   Figure 1: MBO Phases
                    Phase                                               Benefit
 1 – Component Criticality Review               Utilize component ranking to make risk based
                                                decisions when prioritizing work and allocating
                                                resources.
 2 – RTF Component Review                       Begin reduction of existing PM and Corrective
                                                Maintenance backlog on critical components
                                                by re-allocation of resources that were
                                                previously assigned to RTF tasks.
 3 – Critical and Non-Critical PM Review        Optimized PM tasks based on risk based
                                                analysis of component criticality and
                                                equipment failure modes. Focus available
                                                resources to PM and Corrective Maintenance
                                                activities critical to reliable equipment/plant
                                                operation.
 4 – Implementation/Optimization of MBO         Sustainable optimized PM strategy with
                                                component criticality, risk based work process
                                                with resource loading, accurate metrics for
                                                driving progress toward proactive
                                                maintenance; higher reliability at lower cost.


OBJECTIVE, SCOPE, AND METHODOLOGY
PM is important to the reliable operation of assets. As a result of recent findings
identified in Evaluation 2012-14845 – Review of TVA's Nuclear Power Group
Preventive Maintenance, we conducted a review of coal PM. The objective of
our review was to determine if coal plant PM has been performed in accordance
with established schedules and, if not, what effect the deviations are having. The
scope of our review included August 2012 through June 2014 and coal plants
that are currently running and do not currently have plans to close or are closing
fiscal year 2017 or later. Coal plants included were: Allen, Bull Run,
Cumberland, Gallatin, Kingston, Paradise, and Shawnee.


Evaluation 2014-15053                                                                   Page 2

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                                                 Evaluation Report


To achieve our objective, we:

    Reviewed processes and guidance documents and conducted interviews to
     determine PM requirements.
    Reviewed PM compliance metrics from August 2012 through April 2014 to
     determine historical status of PMs.
    Selected a sample of sites including Bull Run, Kingston, Cumberland, and
     Gallatin to:
     - Conduct interviews of plant personnel to determine the status of PMs for
        the sites.
     - Review 654 Problem Evaluation Reports (PERs) with reported dates
        between January 1, 2012, and June 30, 2014, to determine if lack of PMs
        resulted in failures.

This review was performed in accordance with the Council of the Inspectors
General for Integrity and Efficiency’s Quality Standards for Inspection and
Evaluation.

FINDINGS
We found compliance with PM schedules varies by plant and the PM compliance
metric captured may not fully represent all PM activities not completed. The
monthly PM compliance percentage varied from 10.5 to 100 percent. The most
common reasons cited for not completing PMs or adjusting the PM schedule was
resource driven and/or due to emergent/sponsored work.5 We also found, if a
work order does not have the correct reconciliation code, a canceled PM would
be counted as complete, which would skew the data. Reconciliation codes are
essential for accurate reporting, but they are not a required field in Maximo. We
found that both uncompleted PMs and unestablished6 PMs contributed to
equipment failures. In a limited review of PERs, we identified 6 PERs linking
failures to PM issues. Four of the PERs relate to unestablished PMs and 2 of the
PERs relate to uncompleted PMs. We also found that plants are making
progress implementing the new MBO, but have seen some delays in achieving
target dates. Support of outages has impacted some sites’ abilities to complete

4
    In order to select a population of PERs to review, we performed a summary word search in Maximo for
    "failure." The search resulted in 14 PERs at Bull Run, 12 PERs at Kingston, 13 PERs at Gallatin, and
    26 PERs at Cumberland. This search may not have included all PERs related to failures as the word
    search function does not search the whole PER and the site could have entered a PER for a failure with
    different wording.
5
    Emergent work is defined by the work management process as any emergent activity where immediate
    attention is required to protect the health and safety of the general public, correct a significant hazard, or
    prevent the deterioration of system conditions to a possible unsafe and unstable level. The terms
    emergent work and sponsored work are very often used interchangeably, and in regard to impacting
    scheduled work they are the same. Sponsored work is not defined in the work management process;
    however TVA management explained that it is an activity where immediate attention is requested, and it
    is chosen to break the schedule to accommodate the work.
6
    Equipment for which no PM schedule or requirement has been established.
Evaluation 2014-15053                                                                                      Page 3

                                      TVA RESTRICTED INFORMATION
Office of the Inspector General                                            Evaluation Report


its MBO phases. Additionally, we found the absence of PM requirements could
make it harder to manage equipment reliability risk.

COMPLIANCE WITH PM SCHEDULES VARIES BY PLANT AND
PM METRICS CAPTURED MAY NOT FULLY REPRESENT ALL
PM ACTIVITES NOT COMPLETED
We found compliance with PM schedules varies by plant. Also, we found the PM
compliance metric captured may not fully represent all PM activities not
completed. The PM compliance metric is created by dividing the number of PMs
completed by the number of PMs scheduled for that reporting period.

The average PM compliance percentage for the plants in our scope from August
2012 through April 2014 varied significantly, ranging from a low of 45 percent at
Bull Run to a high of 95 percent at Cumberland. The averages by plant can be
seen in Figure 2 below.

            Figure 2: Average of PM Compliance for August 2012-2014
                             Plant                    Average Percentage
                             Allen                           74%
                           Bull Run                          45%
                          Cumberland                         95%
                            Gallatin                         90%
                           Kingston                          74%
                           Paradise                          75%
                           Shawnee                           73%

The month-by-month PM compliance percentage for the plants in our scope also
varied widely from August 2012 through April 2014. The lowest monthly PM
compliance percentage reported was 10.5, at Bull Run in January of 2013, while
the highest monthly PM compliance percentage reported was 100, at
Cumberland in March and April of 2014.




Evaluation 2014-15053                                                                Page 4

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                                                Evaluation Report


Figure 3 below shows the month-by month PM compliance percentages.

           Figure 3: PM Compliance by Plant for August 2012-April 20147

                                          PM Compliance
    100.00%
     90.00%
     80.00%
                                                                                                  Allen
     70.00%
                                                                                                  Bull Run
     60.00%
                                                                                                  Cumberland
     50.00%
                                                                                                  Gallatin
     40.00%
                                                                                                  Kingston
     30.00%
                                                                                                  Paradise
     20.00%                                                                                       Shawnee
     10.00%




We found the focus on PM priority varied by plant. At some plants, personnel
stated that PMs are the number 1 focus and management makes PMs a priority.
In contrast, at other sites we were told PM was the first activity to be pushed from
the schedule. For the sites we visited, the PM compliance percentages were
higher where the sites stated PM was given a priority.

In discussions with plant personnel, the most common reasons cited for not
completing PMs or adjusting the PM schedule was resource driven (lack of
manpower) and/or due to emergent/sponsored work. More than 50 percent of
personnel interviewed indicated that a lack of resources impacted their ability to
complete PMs. Additionally, 47 percent of personnel interviewed indicated
emergent/sponsored work impacted their ability to complete PMs. One plant
employee indicated the work getting sponsored in could wait, but the plant
operates very “operations-centric,” and corrective maintenance is done before
PM.

While TVA management and many plant personnel felt the metrics were
representational of the actual PM completion to the best of their knowledge, we

7
     The PM compliance metric percentages for August 2013 and after were pulled through Cognos (a
     function of Maximo) from PaSTA. The data previous to August 2013 was pulled directly from PaSTA
     because prior to that date, the data did not exist in a database that Cognos could read, because there
     was a period of time where PaSTA was not being used. According to TVA, the data should be accurate
     prior to that time even though it is from a different source, except for a few variables. There is potential
     for small discrepancies in the data because the data could only be pulled based on the crews that are
     current now, not based on the crews that were current at the time the data was representing.
Evaluation 2014-15053                                                                                        Page 5

                                       TVA RESTRICTED INFORMATION
Office of the Inspector General                                                   Evaluation Report


found the metric may not fully capture all PMs not completed. According to TVA
management, if a work order does not have the correct reconciliation code or
does not have a reconciliation code applied at the time of work order closure, a
canceled PM would be counted as complete, which would skew the metric. The
most likely scenario provided for skewed data would be that work orders are
being closed without reconciliation codes. Under this scenario, Cognos would
not have the information necessary to differentiate between closed (completed as
planned) and closed (canceled). According to TVA management, the real issue
then is that within Maximo, reconciliation codes are essential for accurate
reporting, but they are not a required field. This happens because Maximo
allows users to close a work order without applying a reconciliation code. The
reason cited for the reconciliation code not being a required field is because all
non-nuclear users of Maximo do not agree it should be a required field.

Currently, the PM compliance percentage is the only metric being tracked in
regard to PM. As part of the MBO efforts, TVA management has proposed to the
Management Peer team some additional metrics for tracking, which includes an
indicator for number of PMs past due.

BOTH UNCOMPLETED AND UNESTABLISHED PM
CONTRIBUTED TO EQUIPMENT FAILURES
We found that both uncompleted and unestablished PMs contributed to
equipment failures. In a review of 65 PERs, we identified 6 PERs linking failures
to PM issues. Four of the PERs relate to unestablished PMs and 2 of the PERs
relate to uncompleted PMs.

Figure 4 below shows the PM issues in the PERs.

                                  Figure 4: PERs with PM Issues
Equipment/Problem                                PM Issue Identified
Uncompleted PMs
Constant oil gun fires.                          The investigation found that the most common
                                                 failure of oil guns is water in the compressed
                                                 air and missed oil gun PMs. This contributed
                                                 to longer start up times for the unit resulting in
                                                 the use of more diesel fuel when trying to
                                                 establish oil fires in the boilers. Corrective
                                                 actions included completing multiple PMs and
                                                 assigning ownership to a multi skill crew that
                                                 will keep PMs current.
Unit tripped on low vacuum due to ignitor        PMs are in place for ignitors to be tested
failures after Master Fuel Trip.                 weekly by Operations and Instrument
                                                 Mechanics. Ignitor PMs are not being
                                                 performed.




Evaluation 2014-15053                                                                        Page 6

                                    TVA RESTRICTED INFORMATION
Office of the Inspector General                                                                        Evaluation Report


Equipment/Problem                                                      PM Issue Identified
Unestablished PMs
Startup Delays due to Air Pre-Heater failures,                         A PM was never set up to maintain the fluid
electric motors not engaging.                                          coupling per manufacturer recommendation.
Failure on belt shutdown ability to unload coal.                       Failure on a drive roll bearing led to failure of
                                                                       the coupling. It was determined that water
                                                                       contamination of the grease is the apparent
                                                                       cause of the failure. Weaknesses have been
                                                                       determined in PM, PdM, and critical spares.
PK block failure due to stud failure.                                  This failure could result in abnormal operations.
                                                                       Actions taken as a result of this PER included
                                                                       submitting a PM change form to add a new
                                                                       activity for an infrared inspection of all PK
                                                                       blocks in the plant and Electrical Control
                                                                       Building and verification that the PM was
                                                                       generated and scheduled quarterly.
Derates from pulverizer failures.                                      One of the actions taken included creating an
                                                                       Action Tracking Item to determine if PM on
                                                                       system can prevent trips. The Action Tracking
                                                                       Item found steps that should be included on
                                                                       Pulverizer Schedule Maintenance Procedure.

As part of the MBO effort, PM’s on equipment are being evaluated and prioritized
based on criticality to plant operation. This will help plants focus on the most
important PMs.

MBO IS PROGRESSING, BUT HAS SEEN DELAYS
Plants are making progress on the phases of the MBO, but have seen some
delays in achieving target dates. This process is only being completed at the six
long-term coal sites. Figure 5 below shows the targets, progress, and adjusted
dates by plant as of July 30, 2014.

                                            Figure 5: MBO Phase Progress by Plant
                                                      Phases, Progress, and Adjusted Dates
                               Phase 1                          Phase 2                 Phase 3             Phase 4
Plant




                      Target   Status         New      Target    Status     New     Target    New       Target    New
                                             Target                        Target            Target              Target
                      1/14      Actual         -        4/14     100%        _       7/14     8/14       9/14    10/14
                               complete                        complete                     (kickoff
Cumberland Kingston




                                 date                            as of                       set for
                                                                6/11/14                     8/5/14)

                      5/14       39%           -       7/14      0%          -       9/14        -      12/14       -
                               complete                        complete
                               as of July
                               21, 2014


                      2/14      Actual         -       7/14      63%         -       9/14        -      12/14       -
                               complete                        complete
Paradise




                                 date



Evaluation 2014-15053                                                                                            Page 7

                                                      TVA RESTRICTED INFORMATION
Office of the Inspector General                                                                                  Evaluation Report

                                                            Phases, Progress, and Adjusted Dates
                                       Phase 1                        Phase 2                 Phase 3                 Phase 4


Plant
                             Target    Status       New      Target    Status     New     Target    New           Target    New
                                                   Target                        Target            Target                  Target
                              6/14      69%         8/14      8/14      0%        9/14    11/14       -            1/15       -
Gallatin Bull Run Shawnee
                                      complete                       complete


                              6/14      93%           -       8/14       0%           -      11/14        -        1/15        -
                                      complete                         complete


                              6/14      66%         8/14      8/14       0%        10/14     12/14      12/14      2/15      2/15
                                      complete                         complete




As seen in the chart above, some of the target dates have been pushed out. As
of May 2014, coal fleet-wide implementation phase completion for the MBO was
scheduled for February 2015; however due to delays, management now expects
all sites to start the implementation phase by the end of February 2015. A
revised completion date has not yet been determined.

According to TVA management, support of outages has impacted some sites’
abilities to complete. Other challenges in the MBO process are cited as lack of
resources and miscommunication/misunderstanding of process to complete
component criticality. Additionally a disconnect between Windows 7 and
PlantView8 has impacted the ability to begin working on Phase 3. Personnel at
one site indicated concern that if Phase 3 didn’t get started before outage season
in late August, the timeline would be pushed back even further. According to
TVA management, this issue has now been resolved.




8
                            According to the PlantView manual, PlantView is software that serves to track, assess, and communicate
                            equipment/system problems. Information, such as PdM data, visual observations, testing, etc., is
                            entered against specific components. This places information from various sources in a single location,
                            allowing easy assessment of the overall health of that component thereby ensuring the proper actions
                            are chosen for resolution. Because all organizations have access to PlantView, it is considered the
                            “ultimate communication tool” for ensuring well-informed decisions are made.
Evaluation 2014-15053                                                                                                       Page 8

                                                            TVA RESTRICTED INFORMATION
Office of the Inspector General                                     Evaluation Report


THE ABSENCE OF PM REQUIREMENTS COULD MAKE IT
HARDER TO MANAGE EQUIPMENT RELIABILITY RISK
TVA has identified asset condition of non-nuclear generation as a key risk area,
and PM is important to the reliable operation of assets. Currently the
maintenance basis process and PdM program are Engineering Guidance
Documents, which contain recommendations rather than requirements. The
absence of PM requirements could potentially increase the number of PMs or
PdMs that are not completed, thereby making it more difficult for TVA to
effectively manage equipment reliability risk.

RECOMMENDATIONS
We recommend the Senior Vice President, Power Operations, take steps to:

   Increase PM completion/reduce deviations from PM schedules and reinforce
    importance of PM activities.
   Develop a way to more accurately capture and report PM compliance and
    other appropriate PM tracking metrics.
   Expedite MBO efforts.
   Consider the potential impact of having PM governed only by guidelines and
    not requirements.

TVA Management’s Comments – TVA management generally agreed with the
recommendations in this report. See the Appendix for TVA’s complete response.

Auditor’s Response – The Office of the Inspector General concurs with TVA
management’s response.




Evaluation 2014-15053                                                         Page 9

                                  TVA RESTRICTED INFORMATION
                             APPENDIX A
                              PAGE 1 of 2




TVA RESTRICTED INFORMATION
                             APPENDIX A
                              PAGE 2 of 2




TVA RESTRICTED INFORMATION
